No. 19-161

In the Supreme Court of the United States
DEPARTMENT OF HOMELAND SECURITY, ET AL.,
PETITIONERS

v.
VIJAYAKUMAR THURAISSIGIAM
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT APPENDIX

NOEL J. FRANCISCO
Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioners

LEE GELERNT
American Civil Liberties Union
Foundation
125 Broad Street
New York, NY 10004-2400
lgelernt@aclu.org
(212) 549-2616

Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: AUG. 2, 2019
CERTIORARI GRANTED: OCT. 18, 2019

TABLE OF CONTENTS

Page
Court of appeals docket entries (18-55313)........................... 1
District court docket entries (3:18cv135) .............................. 6
District court petition for writ of habeas corpus
(Jan. 19, 2019) ...................................................................... 12
Appellees’ supplemental excerpts of record
(Volume 1 of 1) .................................................................... 35
DHS form I-213 — Record of deportable/inadmissible
alien (Feb. 18, 2017) ............................................................ 36
DHS form M-444 — Information about credible fear
interview .............................................................................. 45
Record of determination/credible fear worksheet ............. 50
Questions and answers from Asylum Officer to
Thuraissigiam (Mar. 7, 2017) ............................................ 55
Questions and answers from Asylum Officer to
Thuraissigiam (Mar. 9, 2017) ............................................ 60
DHS form I-863 — Notice of referral to immigration
judge (Mar. 13, 2017) .......................................................... 90
Order of the immigration judge (Mar. 17, 2017) ................ 97
DHS form I-867A — Record of sworn statement in
proceedings under Section 235(b)(1) of the Act
(Feb. 19, 2017) ..................................................................... 99
DHS form I-867B — Jurat for record of sworn
statement in proceedings under Section 235(b)(1) of
the Act (Feb. 18, 2017) ..................................................... 104
DHS form I-860 — Notice and order of expedited
removal (Feb. 18, 2017) .................................................... 106

(I)

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 18-55313
VIJAYAKUMAR THURAISSIGIAM, PLAINTIFF-APPELLEE
v.
U.S. DEPARTMENT OF HOMELAND SECURITY;
U.S. CUSTOMS AND BORDER PROTECTION;
U.S. CITIZENSHIP AND IMMIGRATION SERVICS;
U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT;
KIRSTJEN NIELSEN, SECRTARY OF DHS; JEFFERSON B.
SESSIONS III, ATTORNEY GENERAL; WILLIAM P. BARR,
ATTORNEY GENERAL; KEVIN K. MCALEENAN, ACTING
COMMISSIONER OF CBP; THOMAS HOMAN; L. FRANCIS
CISSNA, DIRECTOR OF USCIS; PETE FLORES,
SAN DIEGO FIELD DIRECTOR, CBP; GREGORY
ARCHAMBEAULT, SAN DIEGO FIELD OFFICE DIRECTOR,
ICE; FRED FIGUEROA, WARDEN, OTAY MESA
DETENTION CENTER, RESPONDENTS-APPELLEES
DOCKET ENTRIES
DATE

PROCEEDINGS

3/8/18

DOCKETED CAUSE AND ENTERED APPEARANCES OF COUNSEL. SEND MQ:
No. The schedule is set as follows: Appellant Vijayakumar Thuraissigiam opening
brief due 05/08/2018.
Appellees Gregory
Archambeault, L. Francis Cissna, Fred
Figueroa, Pete Flores, Thomas Homan, Kevin
K. McAleenan, Kirstjen Nielsen, Jefferson B.

(1)

2
DATE

PROCEEDINGS

Sessions III, Attorney General, U.S. Citizenship and Immigration Services, U.S. Customs
and Border Protection, U.S. Department of
Homeland Security and U.S. Immigration and
Customs Enforcement answering brief due
06/08/2018. Appellant’s optional reply brief
is due 21 days after service of the answering
brief. [10791869] (RT)
3/9/18

Filed (ECF) Appellant Vijayakumar Thuraissigiam EMERGENCY Motion to stay removal.
Date of service:
03/09/2018.
[10792237]
[18-55313] (Gelernt, Lee)

3/9/18

Filed order (BARRY G. SILVERMAN and
MORGAN B. CHRISTEN): Appellant’s request for a temporary stay of removal contained within Docket Entry No. is granted.
Appellees’ response to the motion for a stay
pending appeal is due March 12, 2018 at 9:00
am Pacific Time. Appellant’s optional reply
is due March 12, 2018 at 1:00 pm Pacific time.
The briefing schedule established previously
remains in effect. [10793451] (AF)
*

3/12/18

*

*

*

*

Filed order (BARRY G. SILVERMAN and
MORGAN B. CHRISTEN) Appellant’s motion for a stay of removal pending appeal
(Docket Entry No.) is denied. See Hilton v.
Braunskill, 481 U.S. 770, 776 (1987). The
motion to file exhibits under seal (Docket Entry No. [5]) is granted. The Clerk shall

3
DATE

PROCEEDINGS

maintain the filing at Docket Entry No. 5 under seal. The briefing schedule established
previously remains in effect.
[10795114]
(ME)
*
3/13/18

*

*

*

Filed order (BARRY G. SILVERMAN and
MORGAN B. CHRISTEN) The motion for
reconsideration (Docket Entry No.) is denied.
See 9th Cir. R. 27-10. The motion for reconsideration en banc (Docket Entry No.) is denied on behalf of the court. 9th Cir. Gen. Ord.
6.11. The motion to stay appellant’s removal
pending the motion for reconsideration
(Docket Entry No.) is denied as moot. The
briefing schedule established previously remains in effect. [10797423] (AC)
*

3/21/18

*

*

*

*

*

Filed order (BARRY G. SILVERMAN and
MORGAN B. CHRISTEN): In response to
a request from a member of the court, the
court’s March 13, 2018 order is vacated to the
extent that the order denies reconsideration
en banc on behalf of the court. Appellant’s
removal from the United States is stayed
pending further court order. This matter is
deemed urgent.
See 9th Cir. Gen. Ord.
3.3(g). The Clerk shall set an expedited
briefing schedule and refer this matter to a
three-judge panel for resolution. All other

4
DATE

PROCEEDINGS

pending motions will be addressed by separate order. [10806769] (AF)
3/22/18

Filed order (BARRY G. SILVERMAN and
MORGAN B. CHRISTEN) The motion for
summary affirmance is denied without prejudice to renewing the arguments in the briefing
(Docket Entry No.). The court’s March 13,
2018 order is vacated in its entirety. Appellant’s removal remains stayed. The Clerk
will establish a briefing schedule by separate
order. [10808260] (ME)

3/22/18

Filed clerk order (Deputy Clerk: PK): No
judge has requested a vote to hear this case
initially en banc. The petition for initial
hearing en banc (Docket Entry No.) is therefore denied. [10808855] (AF)

3/22/18

Filed clerk order (Deputy Clerk: AT): The
briefing schedule is as follows: the opening
brief is due April 4, 2018; the answering brief
is due April 17, 2018; and the optional reply
brief is due April 20, 2018. No motions for
extension of time will be entertained absent
extraordinary cirumstances.
This appeal
will be placed on an argument calendar in the
month of May, 2018. See 9th Cir. Gen. Ord.
3.3(g). [10809321] (ME)
*

*

*

*

*

5
DATE

PROCEEDINGS

5/17/18

ARUGED AND SUBMITTED TO A. WALLACE TASHIMA, M. MARGARET MCKEOWN and RICHARD A. PAEZ. [10876007]
(KAD)
*

*

*

*

*

3/7/19

FILED
OPINION
(A.
WALLACE
TASHIMA, M. MARGARET MCKEOWN
and RICHARD A. PAEZ) REVERSED AND
REMANDED. Judge: AWT Authoring,
FILED AND ENTERED JUDGMENT.
[11218934] (RMM)

3/7/19

Appellee Jefferson B. Sessions III in 18-55313
substituted by Appellee William P. Barr in 1855313 [11219173] (RY)
*

8/6/19

*

*

*

*

MANDATE ISSUED.
RAP) [11388724] (RR)
*

*

*

*

(AWT, MMM and
*

6
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF CALIFORNIA
(SAN DIEGO)

Docket No. 3:18cv135
VIJAYAKUMAR THURAISSIGIAM, PLAINTIFF
v.
U.S. DEPARTMENT OF HOMELAND SECURITY (“DHS”);
U.S. CUSTOMS AND BORDER PROTECTION (CBP);
U.S. CITIZENSHIP AND IMMIGRATION SERVICS
(USCIS); U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT (ICE); KIRTJEN NIELSEN, SECRTARY
OF DHS; JEFFERSON BEAUREGARD SESSIONS, III,
ATTORNEY GENERAL OF THE UNITED STATES; KEVIN
K. MCALEENAN, ACTING COMMISSIONER OF CBP;
THOMAS HOMAN, ACTING DIRECTOR OF ICE;
L. FRANCIS CISSNA, DIRECTOR OF USCIS; PETE
FLORES, SAN DIEGO FIELD DIRECTOR, CBP; GREGORY
ARCHAMBEAULT, SAN DIEGO FIELD OFFICE DIRECTOR,
ICE; FRED FIGUEROA, WARDEN, OTAY MESA
DETENTION CENTER, DEFENDANTS
DOCKET ENTRIES
DATE

1/19/18

DOCKET
NUMBER PROCEEDINGS

1

Petition for Writ of Habeas Corpus against Gregory Archambeault, L. Francis Cissna, Fred
Figueroa, Pete Flores, Thomas
Homan, Kevin K. McAleenan,
Kirtjen
Nielsen,
Jefferson
Beauregard Sessions, III, U.S.

7
DATE

DOCKET
NUMBER PROCEEDINGS

Citizenship and Immigration
Services, U.S. Customs and Border Protection, U.S. Department
of Homeland Security, U.S. Immigration and Customs Enforcement (Filing fee $5 receipt number 0974-10828736.), filed by Vijayakumar Thuraissigiam. (Attachments:
# 1 Civil Cover
Sheet) The new case number is
3:18-cv-135-L-AGS. Judge M.
James Lorenz and Magistrate
Judge Andrew G. Schopler are
assigned to the case. (Wofsy,
Cody) (Irc) Modified to remove
screening text.
(jao).
(Entered: 01/19/2018)
*
3/5/18

25

*

*

*

*

MOTION to Dismiss by Gregory
Archambeault,
L.
Francis
Cissna, Fred Figueroa, Pete Flores, Thomas Homan, Kevin K.
McAleenan, Kirtjen Nielsen, Jefferson Beauregard Sessions, III,
U.S. Citizenship and Immigration Services, U.S. Customs and
Border Protection, U.S. Department of Homeland Security, U.S.
Immigration and Customs Enforcement. (Attachments: # 1
Memo of Points and Authorities,

8
DATE

DOCKET
NUMBER PROCEEDINGS

# 2 Proof of Service) (Press,
Joshua) (Entered: 03/05/2018)
*

*

*

*

*

3/7/18

52

Emergency MOTION to Stay of
Removal
by
Vijayakumar
Thuraissigiam.
(Attachments:
# 1 Memo of Points and Authorities, # 2 Declaration, # 3 Exhibit, # 4 Exhibit, # 5 Proof of
Service) (Gelernt, Lee) (acc).
(Entered: 03/07/2018)

3/7/18

53

Emergency MOTION to Stay re
52 Emergency MOTION to Stay
of Removal Pending Petitioner’s
Emergency Motion for Stay of
Removal
by
Vijayakumar
Thuraissigiam.
(Attachments:
# 1 Memo of Points and Authorities, # 2 Declaration, # 3 Proof
of Service) (Gelernt, Lee) (acc).
(Entered: 03/07/2018)

3/7/18

54

Joint MOTION to Shorten Time
for Petitioner’s Emergency Motion for Stay of Removal by Vijayakumar Thuraissigiam. (Gelernt, Lee) QC re: missing cert
of service (acc).
(Entered:
03/07/2018)

3/8/18

55

ORDER Dismissing Case with
prejudice for lack of Jurisdiction;

9
DATE

DOCKET
NUMBER PROCEEDINGS

denying as moot 52, 53 Petitioner’s Ex Parte Application for
Temporary Stay; denying as
moot 54 Joint Motion to Shorten
Time for Petitioner’s Emergency
Motion for Stay of Removal; and
denying as moot 25 Respondent’s
Motion to Dismiss. the Petition
DISMISSED WITH PREJUDICE for lack of subject matter
jurisdiction.
As a result, as
there is no likelihood of success
on the merits to support Petitioner’s emergency motion for
stay of removal, this motion is
DENIED. (Doc. No. 52 (see
Nken v. Holder, 556 U.S. 418, 426
(2009)).
Thus, Respondents’
motion to dismiss, Petitioner’s ex
parte application for a stay of removal pending his emergency
motion, and the joint motion to
shorten time for petitioner’s
emergency motion for stay of removal are DENIED AS MOOT.4
(Doc. Nos. 25, 53, 54.)
The
Clerk of Court is DIRECTED to
CLOSE this case. Signed by
Judge Anthony J. Battaglia on
3/8/2018.
(acc) (Entered:
03/08/2018)

10
DATE

DOCKET
NUMBER PROCEEDINGS

3/8/18

56

CLERK’S JUDGMENT. IT IS
SO ORDERED AND ADJUDGED that the Petition is
DISMISSED WITH PREJUDICE for lack of subject matter
jurisdiction.
As a result, as
there is no likelihood of success
on the merits to support Petitioners emergency motion for stay of
removal, this motion is DENIED. (Doc. No. 52 (see Nken
v. Holder, 556 U.S. 418 426
(2009)).
Thus, Respondents’
motion to dismiss, Petitioner’s ex
parte application for a stay of removal pending his emergency
motion, and the joint motion to
shorten time for Petitioner’s
emergency motion for stay of removal are DENIED AS MOOT.4
(Doc. Nos. 25, 53, 54.)
The
Clerk of Court is DIRECTED to
CLOSE this case. (acc) (Entered: 03/08/2018)

3/8/18

57

NOTICE OF APPEAL to the 9th
Circuit as to 56 Clerk’s Judgment, 55 Order, by Vijayakumar
Thuraissigiam. (Filing fee $505
receipt number 0974-10997026.)
(Notice of Appeal electronically

11
DATE

DOCKET
NUMBER PROCEEDINGS

transmitted to US Court of Appeals.)
(Attachments:
# 1
Judgment and Order, # 2 Representation Statement) (Newell,
Jennifer).
(Modified
on
3/9/2018: Edited docket text re
linked Order and Judgment.)
(akr). (Entered: 03/08/2018)
*

*

*

*

*

8/21/19

66

Joint MOTION to Hold in Abeyance by Vijayakumar Thuraissigiam.
(Gelernt, Lee) (jrm).
(Entered: 08/21/2019)

8/22/19

67

ORDER granting Joint Motion
to Hold Case in Abeyance (Doc.
No. 66). Signed by Judge Anthony J. Battaglia on 8/22/2019).
(jrm)
(jao).
(Entered:
08/22/2019)
*

*

*

*

*

12
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF CALIFORNIA

Case No. [18CV0135L AGS]
VIJAYAKUMAR THURAISSIGIAM, PETITIONER
v.
U.S. DEPARTMENT OF HOMELAND SECURITY (“DHS”);
U.S. CUSTOMS AND BORDER PROTECTION (“CBP”);
U.S. CITIZENSHIP AND IMMIGRATION SERVICS
(“USCIS”); U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT (“ICE”); KIRSTJEN NIELSEN,
SECRTARY OF DHS; JEFFERSON BEAUREGARD
SESSIONS III, ATTORNEY GENERAL OF THE UNITED
STATES; KEVIN K. MCALEENAN, ACTING
COMMISSIONER OF CBP; THOMAS HOMAN, ACTING
DIRECTOR OF ICE; L. FRANCIS CISSNA, DIRECTOR OF
USCIS; PETE FLORES, SAN DIEGO FIELD DIRECTOR,
CBP; GREG ARCHAMBEAULT, SAN DIEGO FIELD
OFFICE DIRECTOR, ICE; FRED FIGUEROA, WARDEN,
OTAY MESA DETENTION CENTER, RESPONDENTS
Filed: Jan. 19, 2019
PETITION FOR WRIT OF HABEAS CORPUS
INTRODUCTION

Petitioner Vijayakumar Thuraissigiam fled Sri
Lanka after being abducted and severely beaten, leading
to his hospitalization for days. Petitioner is a Tamil, an
ethnic minority group that is persecuted in Sri Lanka,
who was active in supporting a Tamil political party and

13
candidate. He was kidnapped and beaten by government officials as a result. In the aftermath of the civil
war in Sri Lanka, Tamils like Petitioner have been subjected to a consistent and extreme pattern of abduction
and torture. Indeed, even without the kind of persecution Petitioner suffered, Tamils removed to Sri Lanka
after unsuccessfully seeking asylum abroad—as Petitioner would be absent relief—are routinely assumed to
be traitors, arrested, and tortured.
Petitioner entered the United States in February,
2017, and was subsequently apprehended by immigration agents near San Ysidro, California. After apprehension, Petitioner was afforded only a cursory administrative asylum hearing and was subsequently issued
an “expedited removal” order pursuant to 8 U.S.C.
§ 1225(b)(l). Absent court intervention, Petitioner will
be deported to Sri Lanka, where he faces further beatings, torture, and death because of his political associations; his imputed political opinions as a Tamil; and the
perception by Sri Lankan government officials that asylum seekers like Petitioner are traitors. Petitioner is
currently detained at the Otay Mesa Detention Center
in San Diego, California.
Petitioner’s expedited removal order violated his statutory, regulatory and constitutional rights. His hearing
was procedurally unfair because it did not provide him
with a meaningful opportunity to prove his claims. The
expedited removal order issued against him is also substantively unlawful because an erroneous legal standard
was applied and because, based on the undisputed facts
in the administrative record, Petitioner can show a significant possibility of prevailing on his claims for asylum
and other forms of relief available to noncitizens fleeing

14
persecution and torture. Petitioner accordingly seeks
to vacate his existing removal order and seeks an order
directing Respondents to provide him with a new, meaningful opportunity to apply for asylum and other relief
from removal.
Petitioner respectfully alleges, by undersigned counsel, as follows:
JURISDICTION AND VENUE

1. This case arises under the United States Constitution; the Immigration and Nationality Act (“INA”),
8 U.S.C. § 1101 et seq.; the regulations implementing the
INA’s asylum and expedited removal provisions; the
Convention Against Torture (“CAT”), the Foreign Affairs Reform and Restructuring Act of 1998 (“FARRA”),
Pub. L. No. 105-277, div. G, Title XXII, § 2242, 112 Stat.
2681, 2681-822 (1998) (codified as Note to 8 U.S.C.
§ 1231), and the Administrative Procedure Act (“APA”),
5 U.S.C. § 701 et seq. This Court has jurisdiction pursuant to 8 U.S.C. § 1252(e)(2) (INA provision providing
habeas jurisdiction over certain challenges to expedited
removal); 28 U.S.C. § 1331 (federal question jurisdiction); 28 U.S.C. § 2241 (general habeas statute); Art. I.,
§ 9, Cl. 2 of the United States Constitution (“Suspension
Clause”); Art. III of the United States Constitution; the
Due Process Clause; and the Common Law.
2. Petitioner is in federal immigration custody because he is subject to an order of removal and is presently detained at the Otay Mesa Detention Center in
San Diego, California.
3. Venue is proper under 28 U.S.C. § 1391 because
a substantial part of the events or omissions giving rise
to this action occurred in this District.

15
PARTIES

4. Mr. Thuraissigiam is a native and citizen of Sri
Lanka who fled his home country to seek asylum in the
United States. He entered the United States in February 2017, and he was subsequently apprehended by immigration agents.
5. Respondent U.S. Department of Homeland Security (“DHS”) has responsibility for enforcing the immigration laws of the United States.
6. Respondent U.S. Customs and Border Protection (“CBP”) is the sub-agency of DHS that is responsible for the initial processing and detention of noncitizens
who are apprehended near the border and placed in expedited removal proceedings.
7. Respondent U.S. Citizenship and Immigration
Services (“USCIS”) is the sub-agency of DHS that,
through its Asylum Officers, conducts interviews of certain individuals placed in expedited removal to determine whether they have a credible fear of persecution
and should be permitted to apply for asylum.
8. Respondent U.S. Immigration and Customs Enforcement (“ICE”) is the sub-agency of DHS that is responsible for carrying out removal orders and operates
and oversees the Berks detention facility.
9. Respondent Kirstjen Nielsen is sued in her official capacity as the Secretary of the Department of
Homeland Security. In this capacity, she directs each
of the component agencies within DHS, ICE, USCIS,
and CBP. As a result, Respondent Nielsen has responsibility for the administration of the immigration laws

16
pursuant to 8 U.S.C. § 1103, is empowered to grant asylum or other relief, and is a legal custodian of Petitioner.
10. Respondent Jefferson Beauregard Sessions III
is sued in his official capacity as the Attorney General of
the United States. In this capacity, he has responsibility for the administration of the immigration laws pursuant to 8 U.S.C. § 1103, oversees the Executive Office
of Immigration Review, is empowered to grant asylum
or other relief, and is a legal custodian of Petitioner.
11. Respondent Kevin K. McAleenan is sued in his
official capacity as the Acting Commissioner of CBP,
and is a legal custodian of Petitioner.
12. Respondent Thomas Homan is sued in his official capacity as the Acting Director of ICE, and is a legal
custodian of Petitioner.
13. Respondent L. Francis Cissna is sued in his official capacity as the Director of USCIS, and is a legal
custodian of Petitioner.
14. Respondent Pete Flores, is sued in his official capacity as the San Diego Field Director of CBP, and is a
legal custodian of Petitioner.
15. Respondent Greg Archambeault is sued in his official capacity as the San Diego Field Office Director of
ICE, and is a legal custodian of Petitioner.
16. Respondent Fred Figueroa is sued in his official
capacity as the Warden of Otay Mesa Detention Center,
and is a legal custodian of Petitioner.

17
STATUTORY BACKGROUND
Jurisdiction:

17. In general, a final removal order must be challenged directly in the court of appeals by petition for review. 8 U.S.C. § 1252(a)(1).
18. However, with respect to expedited removal orders issued pursuant to 8 U.S.C. § 1225(b)(1), the proper
forum for review is a district court habeas proceeding.
8 U.S.C. § 1252(e)(2).
The Expedited Removal Scheme:

19. Under 8 U.S.C. § 1225(b)(1), certain persons who
are seeking admission to the United States may be
placed into “expedited removal” proceedings. Section
1225(b)(1)(A)(i) authorizes the Attorney General to apply expedited removal to certain inadmissible noncitizens who are “arriving” in the United States and seeking
admission at a port of entry. Id.; 8 C.F.R. § 1.2 (defining “arriving aliens” as including “applicant[s] for admission coming or attempting to come into the United
States at a port-of-entry”).
20. Section 1225(b)(1)(A)(iii) also authorizes the Attorney General to apply expedited removal to certain inadmissible noncitizens located within the United States
“who have not been admitted or paroled” and who cannot demonstrate that they have been continuously physically present in the United States for two years.
8 U.S.C. § 1225(b)(1)(A)(iii). Pursuant to that provision, in 2004, the Attorney General began to apply expedited removal to persons within the United States who are
apprehended within 100 miles of the border and who are

18
unable to demonstrate that they have been physically present in the United States for 14 days. See 69 Fed. Reg.
48877 (Aug. 11, 2004). Petitioner entered the United
States, was arrested in the United States, and was
placed into expedited removal under this authorization.
21. All persons subject to expedited removal are entitled to an interview with an asylum officer if they indicate either an intention to apply for asylum or a fear of
returning to their country. 8 U.S.C. § 1225(b)(1)(A)(ii);
8 C.F.R. § 235.3(b)(4) (providing that if “an alien subject
to the expedited removal provisions indicates an intention to apply for asylum, or expresses a fear of persecution or torture, or a fear of return to his or her country,
the inspecting officer shall not proceed further with
removal of the alien until the alien has been referred
for an interview by an asylum officer”); 8 U.S.C.
§ 1225(b)(1)(B) (setting forth procedure for interviews
by asylum officers to determine whether the noncitizen
has a “credible fear of persecution”); see also 8 C.F.R.
§ 208.30.
22. If the noncitizen is referred to an asylum officer,
the officer conducts a “credible fear interview” which is
designed “to elicit all relevant and useful information
bearing on whether the applicant has a credible fear of
persecution or torture.” 8 C.F.R. § 208.30(d).
23. The asylum officer must “conduct the interview
in a non-adversarial manner, separate and apart from
the general public.” 8 C.F.R. § 208.30(d). If the asylum officer determines that an individual “is unable to
participate effectively in the interview because of illness, fatigue, or other impediments, the officer may reschedule the interview.” 8 C.F.R. § 208.30(d)(1). The

19
asylum officer is required to determine that the individual “has an understanding of the credible fear determination process.” 8 C.F.R. § 208.30(d)(2).
24. The statute and the regulations further provide
that the noncitizen has a right to “consult with a person
or persons of the alien's choosing prior to the interview
or any review thereof.” 8 U.S.C. § 1225(b)(1)(B)(iv);
8 C.F.R. § 208.30(d)(4). “Any person or persons with
whom the alien chooses to consult may be present at the
interview,” and may be allowed to present a statement
at the end of the interview. 8 C.F.R. § 208.30(d)(4). If
the noncitizen “is unable to proceed effectively in English,” and the asylum officer “is unable to proceed competently in a language chosen by the alien,” the officer
“shall arrange for the assistance of an interpreter in
conducting the interview.” 8 C.F.R. § 208.30(d)(5).
25. At the conclusion of the interview, the asylum officer must create a written summary of the “material
facts” provided during the interview, review that
summary with the individual and provide him/her
with the opportunity to correct any errors. 8 C.F.R.
§ 208.30(d)(6); see also 8 U.S.C. § 1225(b)(1)(B)(iii)(II).
If the asylum officer makes a negative credible fear determination, the officer must provide a written record of
the determination that “shall include . . . the officer’s analysis of why, in light of [the] facts, the alien
has not established a credible fear of persecution.”
8 U.S.C. § 1225(b)(1)(B)(iii)(II).
26. Upon the individual’s request, the agency
must provide for prompt review of the asylum officer’s
determination by an immigration judge. 8 U.S.C.
§ 1225(b)(1)(B)(iii)(III); see also 8 C.F.R. § 208.30(g)(1).
The immigration judge “may receive into evidence any

20
oral or written statement which is material and relevant
to any issue in the review.” 8 C.F.R. § 1003.42(c). And
the statute specifies that the immigration judge review
must include an opportunity for the individual “to be
heard and questioned by the immigration judge, either
in person or by telephonic or video connection. . . . ”
8 U.S.C. § 1225(b)(1)(B)(iii)(III).
27. The immigration judge’s decision “is final and
may not be [administratively] appealed.” 8 C.F.R.
§ 1208.30(g)(2)(iv)(A). However, an immigration judge
“may upon his or her own motion at any time, or upon
motion of the Service or the alien, reopen or reconsider
any case in which he or she has made a decision[.]”
8 C.F.R. § 1003.23(b)(1).
28. Likewise, an asylum officer may reconsider a negative determination. 8 C.F.R. § 1208.30(g)(2)(iv)(A). If
reconsideration is granted, a new interview under
8 U.S.C. § 1225(b)(1)(B) must be conducted, and a new
credible fear determination must be made. In the
event of a negative determination, a written record is
required, 8 U.S.C. § 1225(b)(1)(B)(iii)(II), and the applicant has a right to administrative review by an immigration judge, 8 U.S.C. § 1225(b)(1)(B)(iii)(III).
29. When a noncitizen is granted a credible fear interview, he is entitled to the procedural protections set
forth by statute and regulation, including the right to
seek administrative review of any negative credible fear
determination. See also Michael A Benson, Executive
Assoc. Commissioner for Field Operations, Immigration
& Naturalization Service, Memorandum, Expedited
Removal: Additional Policy Guidance (Dec. 30, 1997)
(“Re-interviews will occur when the Office of Interna-

21
tional Affairs determines that the alien has made a reasonable claim that compelling new information concerning the case exists and should be considered. Districts
should cooperate by continuing to detain the alien until
the second adjudication, and potentially also a second
review by the immigration judge, is completed.”).
30. To prevail ultimately on an asylum claim, the applicant must establish that there is at least a 10% chance
that he or she will be persecuted on account of one of the
listed grounds, including political affiliation or belonging to a particular social group. Critically, however, to
prevail at the credible fear interview, Congress did not
require applicants to establish their ultimate entitlement to asylum, i.e., a 10% chance of being persecuted.
Rather, to prevail at a credible fear interview, the applicant need only show “a significant possibility, taking
into account the credibility of the statements made by
the alien in support of the alien’s claim and such other
facts as are known to the officer, that the alien could
establish eligibility for asylum. . . . ” 8 U.S.C.
§ 1225(b)(1)(B)(v). Thus, to prevail at the credible fear
stage, applicants need only show a significant possibility that there is a 10% chance of persecution if they are
returned to their home country.
31. If a noncitizen is found by the asylum officer
to have a “credible fear,” he may not be removed from
the United States until his application for asylum is
adjudicated in a full removal hearing. See 8 U.S.C.
§ 1225(b)(1)(B)(ii) (“If the officer determines at the time
of the interview that an alien has a credible fear of persecution . . . , the alien shall be detained for further
consideration of the application for asylum.”).

22
32. Specifically, noncitizens who satisfy the credible
fear standard are taken out of the expedited removal
system altogether and placed into the regular (INA Section 240) removal process. 8 U.S.C. § 1229; INA § 240.
At the Section 240 hearing, they will have the opportunity to develop a full record before an immigration
judge, and may appeal an adverse decision to the BIA
and federal court of appeals. 8 C.F.R. § 208.30(f ); see
also 8 U.S.C. § 1225(b)(1)(B)(ii).
33. The reason for the low threshold at the credible
fear stage is straightforward. An asylum claim is complex and often will take significant amount of time, resources and expertise to develop properly, including expert testimony and extensive country conditions evidence. It is thus highly unrealistic for applicants in the
expedited removal system, especially if unrepresented,
to present a full asylum claim while in detention and under severe time constraints. Accordingly, by establishing a low threshold at the credible fear stage, Congress
ensured that potentially valid asylum claims could be developed properly and presented in a full Section 240
hearing before an immigration judge.
FACTUAL BACKGROUND

34. Mr. Thuraissigiam is a 46-year-old Sri Lankan
man who fled to the United States in order to escape
persecution by the Sri Lankan government.
35. Mr. Thuraissigiam is Tamil, an ethnic minority
group in Sri Lanka. A decades-long civil war between
government forces and the Tamil separatist group Liberation Tigers of Tamil Eelam (LTTE) began in the
1980s.
36. In 2002, a cease fire was declared.

23
37. In 2004, elections were held in Sri Lanka. During the elections, Mr. Thuraissigiam worked on behalf of
M.K. Shivajilingam, a candidate for parliament with the
Tamil National Alliance, a Tamil-affiliated political
group. He helped to arrange public meetings in support of Mr. Shivajilingam.
38. The cease fire collapsed in 2006. In 2007, Mr.
Thuraissigiam was ordered to report to a Sri Lankan
Army camp. He was detained and beaten, and told he
should not support Mr. Shivajilingam. Eventually he
was released.
39. In 2009, the Sri Lankan government defeated
the LTTE, ending the civil war.
40. In 2013, Mr. Thuraissigiam again worked in support of Mr. Shivajilingam, who was then a candidate in
a provincial election. He again helped to arrange public meetings in support of Mr. Shivajilingam.
41. In February, 2014, men approached Mr. Thuraissigiam at his farm and identified him by name. They
told Mr. Thuraissigiam that they were government intelligence officers. A van arrived at the farm and the
men pushed him into it.
42. In the van, he was bound, beaten, and interrogated about his political activities and connection to Mr.
Shivajilingam. He was taken to a house where he was
further beaten and asked similar questions about his political activities. He was lowered into a well, simulating
drowning, threatened with death, and then suffocated,
causing him to lose consciousness.
43. Mr. Thuraissigiam woke up in a hospital, where
he spent days recuperating from his serious injuries.

24
He still suffers from numbness in his left arm and has
scars from the beatings.
44. He went into hiding in Sri Lanka and India, and
then fled the country in 2016. After an arduous journey
through Latin America, he was able to reach the U.S.Mexico border.
45. Mr. Thuraissigiam entered the United States on
February 17, 2017, and was subsequently apprehended.
He is currently detained at the Otay Mesa Detention
Center in San Diego, California.
46. It is widely recognized that, since the end of the
civil war, human rights violations have remained widespread and targeted at Tamils in Sri Lanka. See Freedom From Torture, Tainted Peace: Torture in Sri
Lanka since May 2009, August 2015 (“Tainted Peace”)
10, 19 (documenting 148 cases of torture perpetrated
since the end of the civil war, overwhelmingly against
Tamils, including sexual torture in 71% of the cases),
available at https://www.freedomfromtorture.org/sites/
default/files/documents/sl_report_a4_-_final-f-b-web.pdf;
Human Rights Watch, “We Will Teach You a Lesson,”:
Sexual Violence against Tamils by Sri Lankan Security Forces, 2012 (“Sexual Violence against Tamils”)
(documenting widespread violations of human rights
committed against Tamils in Sri Lanka by government
officials after the civil war), available at https://www.hrw.
org/report/2013/02/26/we-will-teach-you-lesson/sexualviolence-against-tamils-sri-lankan-security-forces; see
also United Nations, Sri Lanka routinely tortures security suspects amid stalled reform process, UN expert
finds, July 18, 2017 (concluding that “The Tamil community has borne the brunt of the State’s well-oiled torture
apparatus”), available at http://www.ohchr.org/EN/

25
NewsEvents/Pages/DisplayNews.aspx?NewsID=21884&
LangID=E; Associated Press, Dozens of men say Sri
Lankan forces raped and tortured them, Nov. 8, 2017
(“Dozens of men”) (documenting dozens of Tamil men
who were abducted, tortured, and/or raped by Sri
Lankan government forces in 2016 and 2017), available
at https://www.apnews.com/ced017bd441f46ba838aaedf
6ff5dbe2; id. (quoting a human rights investigator with
40 years of experience interviewing torture survivors
explaining: “The levels of sexual abuse being perpetuated in Sri Lanka by authorities are the most egregious
and perverted that I’ve ever seen.”)
47. In particular, there is a widespread pattern of
Sri Lankan security forces abducting Tamils in vans,
and subsequently torturing them. See Tainted Peace
at 28 (victims “described a form of abduction by armed
men from the street or their homes, who blindfolded or
hooded them and took them in ‘white vans’ to unknown
locations”); Sexual Violence against Tamils (documenting many accounts of abduction and torture by government officials in vans); see also International Truth and
Justice Project, Unstopped: 2016/17 Torture in Sri
Lanka, July 2017 (“Unstopped”) at 7, 18 (documenting
24 cases in which Tamils were abducted in vans and tortured), available at http://www.itjpsl.com/assets/ITJP_
unstopped_report_final.pdf; Dozens of men (many victims “told similar tales: they were abducted at home or
off the streets by men in white or green vans” and then
tortured).
48. Individuals are targeted for such extrajudicial
abduction, torture, and sexual violence based on their
actual or perceived connection to the LTTE or opposi-

26
tion political groups. Tainted Peace at 9, 19 (individuals tortured included those associated with a political opposition group or “with a real or perceived association”
with the LTTE); Sexual Violence against Tamils (similar); U.S. Dept. of State, Sri Lanka 2016 Human Rights
Report 1 (recognizing “arbitrary arrest, lengthy detention, surveillance, and harassment of . . . persons
viewed as sympathizers” of the LTTE), available at
https://www.state.gov/documents/organization/265760.
pdf; U.S. Dept. of State, Sri Lanka 2015 Human Rights
Report 1-2 (similar).
49. Indeed, regardless of whether they are specifically tied to the LTTE or opposition political groups,
those who are deported to Sri Lanka after seeking asylum abroad face extreme risk of arrest, torture, and sexual violence upon arrival in Sri Lanka. See Gaksakuman v. U.S. Atty. Gen., 767 F.3d 1164, 1170 (11th Cir.
2014) (vacating denial of asylum because applicant had
submitted evidence that “as a ‘failed asylum seeker,’ he
would be subject to torture upon his return to Sri
Lanka,” where the government would deem him a traitor for having fled the country); Tainted Peace 26,
29 (documenting multiple cases of Tamils arrested at
the airport and tortured); Sexual Violence against
Tamils (similar); see also Thayaparan v. Sessions, 688
F. App’x 359, 371 (6th Cir. 2017) (following Gaksakuman and agreeing that background materials “tended
to prove that failed asylum seekers were at the risk of
being detained and tortured regardless of whether they
were actually Tamil with ties to the LTTE”); The Guardian, UN condemns Australia’s forced return of asylum
seeker to Sri Lanka, Dec. 22, 2017 (“Asylum seekers
returned to Sri Lanka are routinely arrested at the
airport. . . . ”), available at https://www.theguardian.

27
com/world/2017/dec/22/un-condemns-australias-forcedreturn-of-asylum-seeker-to-sri-lanka.
50. Government agents in Sri Lanka have come to
Mr. Thuraissigiam’s house and his mother’s house repeatedly since he was kidnapped, asking for his whereabouts.
ADMINISTRATIVE DECISIONS

51. Petitioner was issued an expedited removal order after the government determined that he did not
have a credible fear of persecution. The process that
led to this expedited removal order was wholly inadequate.
52. The asylum officer violated his duty “to elicit all
relevant and useful information bearing on whether the
applicant has a credible fear of persecution or torture.”
8 C.F.R. § 208.30(d). For example, the officer never
asked Mr. Thuraissigiam whether he had been involved
in political activities. If asked, Mr. Thuraissigiam
would have told the officer about his political activities
on behalf of a Tamil-affiliated political party and candidate. That information would have been both relevant
and useful in light of the widely known country conditions evidence indicating that there is a widespread pattern of government abduction and torture of Tamils in
Sri Lanka. See, e.g., ¶¶ 46-49.
53. There were also communication problems
throughout the interview. The translator and the asylum officer often misunderstood Mr. Thuraissigiam; these
communication issues affected the interview throughout,
in violation of the regulations governing the credible fear
interview process. See 8 C.F.R. § 208.30(d)(2) (asylum

28
officer must determine that applicant “has an understanding of the credible fear determination process”);
8 C.F.R. § 208.30(d)(1) (“If the asylum officer determines that an individual “is unable to participate effectively in the interview because of illness, fatigue, or
other impediments, the officer may reschedule the interview.” (emphasis added)).
54. The negative credible fear determination also
resulted from a number of legal errors. For example,
and critically, the asylum officer failed to consider relevant country conditions evidence, as he was legally required to do. See 8 U.S.C. § 1225(b)(1)(B)(v) (asylum
officer must take into account “such other facts as are
known to the officer”); 8 C.F.R. § 208.30(e)(2) (same);
Aguilar-Ramos v. Holder, 594 F.3d 701, 705 (9th Cir.
2010) (holding, in Convention Against Torture case, that
“[t]he failure of the IJ and BIA to consider evidence of
country conditions constitutes reversible error”).
55. In particular, the asylum officer should have
been aware of the widespread country conditions evidence that Tamils are subject to systematic persecution
and torture by the government. See, e.g., ¶¶ 46-49.
The asylum officer knew that Mr. Thuraissigiam was
Tamil and had been abducted from his home in a van and
severely beaten. And the country conditions materials
amply corroborate what happened to Mr. Thuraissigiam, and place it within a context of frequent government persecution of Tamils. Like many other documented cases, he was a Tamil abducted by government
intelligence agents from his home in a van and tortured.
See, e.g., Tainted Peace at 28 (documenting dozens of
such kidnappings, overwhelmingly of Tamils, in which
victims “described a form of abduction by armed men

29
from the street or their homes, who blindfolded or
hooded them and took them in ‘white vans’ to unknown
locations”); Sexual Violence against Tamils (documenting many accounts of abductions of Tamils by government officials in vans). The officer did not take account
of that country conditions evidence, as was required to
do.
56. Moreover, the country conditions in Sri Lanka
with regard to Tamils are so extreme that Mr. Thuraissigiam should have prevailed even apart from his specific past persecution and circumstances. Widespread
documentary evidence indicates that “a failed asylum
seeker” from Sri Lanka is at extreme risk of being “subject to torture upon his return to Sri Lanka,” where the
government would deem him a traitor for having fled the
country—evidence which led the Eleventh Circuit to vacate a denial of asylum on this basis. Gaksakuman, 767
F.3d at 1170; see also Thayaparan, 688 F. App’x at 371
(same). The country conditions alone were enough for
Mr. Thuraissigiam to prevail, but the asylum officer
failed to consider them.
57. Mr. Thuraissigiam requested that an immigration judge review the asylum officer’s determination.
58. The hearing before the immigration judge was
also procedurally and substantively flawed for many of
the same reasons as the asylum officer’s interview and
decision. The immigration judge, like the asylum officer, failed to take account of the widely known country
conditions evidence that Petitioner would face persecution and torture if returned to Sri Lanka.

30
59. At both the asylum officer interview and immigration judge hearing, Mr. Thuraissigiam was extremely frightened and did not know whether information he offered would be shared with the Sri Lankan
government.
60. Mr. Thuraissigiam twice requested a new credible fear interview, and he requested a new immigration
judge review. All these requests were denied.
61. Based on the testimony Mr. Thuraissigiam provided to the asylum officer and immigration judge—
testimony the decision makers accepted as credible—
under a correct legal standard, Petitioner should have
passed the credible fear stage.
62. Under the correct standard—which requires
only that an applicant show a significant possibility
there is a 10% chance of establishing eligibility for asylum, or a significant possibility of establishing eligibility
for withholding of removal or CAT—Petitioner should
have prevailed.
EXHAUSTION

63. There are no further administrative procedures
that Petitioner is required to exhaust.

31
CAUSES OF ACTION
Count One
(Violation of the Immigration and Nationality Act;
the Foreign Affairs Reform and
Restructuring Act of 1998;
the United Nations Convention Against Torture;
the APA; and Implementing Regulations)

64. All of the foregoing allegations are repeated and
re-alleged as though fully set forth herein.
65. Respondents have violated Petitioner’s statutory and regulatory rights by depriving him of a meaningful right to apply for asylum, withholding of removal,
and Convention Against Torture (“CAT”) relief under
the governing statutes and regulations. See Immigration and Nationality Act (“INA”) and implementing regulations, 8 U.S.C. § 1225(b)(1) (expedited removal),
8 C.F.R. §§ 235.3(b)(4), 208.30, and 1003.42; 8 U.S.C.
§ 1158 (asylum); 8 U.S.C. § 1231(b)(3) (withholding of removal); and the United Nations Convention Against
Torture, implemented in the Foreign Affairs Reform
and Restructuring Act of 1998 (“FARRA”), Pub. L. No.
105-277, div. G, Title XXII, § 2242, 112 Stat. 2681, 2681822 (1998) (codified as Note to 8 U.S.C. § 1231).
66. These provisions entitle Petitioner to a fair procedure to apply for asylum, withholding of removal, and
CAT relief. Petitioner’s procedural rights guaranteed
by these statutes and regulations were violated.
67. The asylum officer and immigration judge also
erred by applying an incorrect legal standard. Petitioner was ordered removed despite the fact that he can
show a significantly possibility that he could establish

32
eligibility for asylum, withholding of removal, and CAT
claims.
68. Petitioner should have prevailed in establishing
a credible fear and would thus have been allowed to pursue his claims for asylum, withholding of removal and
protection under the Convention Against Torture in
regular Section 240 immigration proceedings.
Count Two
(Violation of the Due Process Clause of the Fifth
Amendment to the United States Constitution)

69. All of the foregoing allegations are repeated and
realleged as though fully set forth herein.
70. The Due Process Clause of the Fifth Amendment to the United States Constitution provides that
“[n]o person shall . . . be deprived of life, liberty, or
property, without due process of law.”
71. Petitioner, having effected entry into the United
States by crossing the border, is indisputably present in
the United States and entitled to the protections of the
Due Process Clause.
72. Petitioner’s due process rights were violated by
the asylum officer and immigration judge in not providing him with a meaningful opportunity to establish his
claims, failing to comply with the applicable statutory
and regulatory requirements, and in not providing him
with a reasoned explanation for their decisions.
73. Under constitutionally adequate procedures,
Petitioner would have prevailed on his claims.

33
PRAYER FOR RELIEF
WHEREFORE, Petitioner respectfully prays the

Court to:

a. Issue an Order directing Respondents to show
cause why the writ should not be granted;
b. Declare Petitioner’s expedited removal order
contrary to law;
c. Enter an order directing Respondents to vacate
the expedited removal order entered against Petitioner;
d. Issue a writ of habeas corpus, an injunction, or a
writ of mandamus directing Respondents to provide Petitioner a new opportunity to apply for asylum and other
applicable forms of relief; and
e. Grant such further relief as the Court deems just
and proper.
Dated: Jan. 19, 2018
Respectfully submitted,
By: /s/

CODY WOFSY.
CODY WOFSY (SBN 294179)
Jennifer Chang Newell (SBN 233033)
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION IMMIGRANTS’ RIGHTS PROJECT
39 Drumm Street
San Francisco, CA 94111
T: (415) 343-0774
F: (415) 395-0950
cwofsy@aclu.org
jnewell@aclu.org

34
Lee Gelernt*
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION IMMIGRANTS’ RIGHTS PROJECT
125 Broad Street, 18th Floor
New York, NY 10004
T: (212) 549-2616
F: (212) 549-2654
lgelernt@aclu.org
David Loy (SBN 229235)
ACLU FOUNDATION OF SAN
DIEGO & IMPERIAL COUNTIES
P.O. Box 87131
San Diego, CA 92138-7131
T: (619) 232-2121
F: (619) 232-0036
davidloy@aclusandiego.org
Attorneys for Petitioner
*Application for admission pro hac
vice forthcoming

35
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-55313
VIJAYAKUMAR THURAISSIGIAM,
PETITIONER-APPELLANT
v.
U.S. DEPARTMENT OF HOMELAND SECURITY, ET AL.,
RESPONDENT-APPELLEES
APPELLEES’ SUPPLEMENTAL EXCERPTS OF
RECORD
Volume 1 of 1

*

*

*

*

*

36

[FOLDOUT 1]

37
U.S. Department of Homeland Security
Continuation Page for Form I213

Alien’s Name
Thuraissigaim,
Vijayakumar

File Number
[REDACTED]

Date
02/18/2017

Event No:
[REDACTED]

MINOR CHILDREN:
-----------------------------CLAIMS ONE SRILANKAN NATIONAL
FATHER NAME AND ADDRESS:
-----------------------------------------------Nationality: SRI LANKA [REDACTED]
[REDACTED]
THAMUL, SRI LANKA
MOTHER NAME AND ADDRESS:
-----------------------------------------------Nationality: SRI LANKA [REDACTED]
[REDACTED]
THAMUL, SRI LANKA
ASSISTING ASSETS:
-----------------------------ALL-TERRAIN VEHICLE
FUNDS IN POSSESSION:
------------------------------------United States Dollar 104.00

38
RECORDS CHECKED:
--------------------------------[REDACTED]
NARRATIVE:
-------------------On January 17, 2017, at approximately 10:50 p.m., Border Patrol Agent [REDACTED]was patrolling the area
of “Goats Canyon” when he saw three subjects walking
east from the primary border fence and begin walking
towards Spooners. Agent [REDACTED], identified
himself as a Border Patrol Agent, and ordered the subjects to sit down. This area is approximately four miles
west of the San Ysidro Port of Entry and approximately
25 yards north of the international boundary between
the United States and Mexico.
Agent [REDACTED]was able to establish that the three subjects
were citizens and nationals of Sri Lanka and were not in
possession of any immigration documents that would allow them to enter or remain in the United States. At
approximately 10:55 p.m., Agent [REDACTED]placed
the subjects under arrest, one later identified as
THURAISSIGIAM, Vijayakumar, and had them transported to the Imperial Beach Border Patrol Station for
processing.
At the station, THURAISSIGIAM’s biographical and
biometric information was entered into the Department
of Homeland Security (DHS) processing systems.
These systems, along with record checks, revealed that
THURAISSIGIAM has no prior criminal history, but he
was previously encountered by Homeland Security Investigations (HSI) in Mexico City and was issued the
identifiers listed on the front page of the I-213.

39
THURAISSIGIAM was issued A# [REDACTED].
No wants or warrants were found.
All questioning and casework was done in the English/
Tamil languages through the use of Language Line Solutions Interpreter ID# 211399.
On February 18, 2017, at approximately 10:50 a.m., Border Patrol Agent [REDACTED] advised THURAISSIGIAM of his right to speak with a Consular Officer of
Sri Lanka witnessed by Border Patrol Agent [REDACTED]. THURAISSIGIAM stated that he understood his right and did not want to speak to the consulate.
THURAISSIGIAM was served with DHS forms I-296,
I-867A, I-867B, M-444, and a list of free legal services.
THURAISSIGIAM is claiming credible fear if returned
to Sri Lanka.
THURAISSIGIAM is being held in DHS custody pending the expedited removal to Sri Lanka after speaking
with an asylum officer.
QUESTIONS:
for Thuraisingam, Vijayakumar by
BPA [REDACTED].
Do you speak English?

Very little

Where did you learn to speak English?
English

I don’t speak

What is the language that you speak and understand
best? I speak Tamil (Sri Lanka)
What other languages can you speak, read or write?
None
What is your true name?

Thurisingam, Vijayakumar

40
Have you ever used any other names?
What is your date of birth?

No

[REDACTED]

Have you ever used any other dates of birth?
Where are you from—what country?
What city were you born in?
Sri Lanka

Sri Lanka

[REDACTED] Thamu,

Where does your family live now?
My family lives in Sri Lanka

—what countries?

What type of work does your father do?
away
Are you married?
DACTED]

No

He passed

Yes, my wife’s name is [RE-

Do you have any children?

Yes, [REDACTED]

Have you ever attended school?

Yes

What is your level of education?

Very little

Have you ever held a job?

I am a farmar

What kind of work have you done?

A farmer

Are you planning to work in the United States so that
you can send money back to your family? No
What type of work?

NA

Where are you going to work?

NA

LIFETIME TRAVEL ROUTE OF ALL COUNTRIES
IN CHRONOLOGICAL ORDER
When was the first time you left your country of birth?
June 29, 2016
Where did you travel to? Well In 2014 trouble started
for me. I was beaten by some people and with the help

41
of my uncle ([REDACTED]) I left Sri Lanka to India on
August 16, 2014. After 3 months in India on a Tourist
Visa I returned to Sri Lanka and was beaten again by
some people. After years of being threatened on June
29, 2016 I left Sri Lanka to a country I don’t remember.
My uncle arranged for me to leave Sri Lanka but I don’t
remember the countries until I arrived in Panama. In
Panama while walking, a group of bandits robbed me of
my passport. I was in Panama about 21 days immigration camp, then Costa Rica for 25 days, Guatemala for 2
month walking, then Tapachula for 1 days until finally
arrived in Tijuana.
When was the last time you were in your native country
—your country of birth? For about 3 months I was in
Madras, India in 2014 then I returned back to Sri Lanka.
How long were you in Mexico?

1 week

Why did you not present yourself for inspection at a legal Port of Entry into the United States? I don’t know
I just followed people here
Why did you run/hide from officers of the U.S. Border
Patrol today? NA
Did your family pay for your travel to the United States?
Yes
How much did you or your family pay to smugglers for
your travel? My family paid 4,000,000 Sri Lankan Rupee= 26,483 USD
Was the money paid in United States dollars?
Lanka Rupee
What currency was the money paid in?
paid? Sri Lankan Rupee

Sri

—How was it

42
How did you or your family get all of this money for your
travel? Sold many plots of land
*

*

*

*

*

Where are you planning to live in the United States?
just wanted a safe place

I

Do you have any family members living in the United
States? —who? —Where? No
Do you have anyone related to you—cousins, aunts,
uncles—in the United States? No
Do you have any friends living in the United States?
No
*

*

*

*

*

Do you have an attorney in the United States?
*

*

*

*

No

*

IDENTITY DOCUMENTS AND STATUS ABROAD
Do you have any identity documents?
*

*

*

*

No

*

Do you have legal immigration status anywhere in the
world? No
Do you have a passport from your country of birth?
NO I lost it in Panama
If so, where is the original passport now?

Lost

Have you ever applied for refugee status anywhere in
the world? No

43
Have you ever had a refugee travel document issued by
any country in the world? —what country? No
Have you ever applied for a United States Visa before?
No
Have you ever had legal status to live in any country
other than your country of birth? —what country?
No
Do you have citizenship in any country other than your
country of birth? No I had a tourist Visa in India in
2014
Do you have resident status anywhere other than your
country of birth? No
CONDITIONS IN HOME COUNTRY
Where you ever physically harmed in your country of
birth? I was beaten and ended up at the hospital in Sri
Lanka.
Were you ever physically harmed in any other country?
No
Are you a member of any political party?
What is your religion?
*

No

Hindu
*

*

*

*

Did you leave your country to find better employment?
No
Is that the reason that you traveled to the United
States? I left because people were trying to kill me
Do you have any fear of returning to your home country?
Yes, they will kill me

44
How many different cities did you reside in when you
were in your home country? Only at permanent address.
[REDACTED], Sri Lanka
*

*

*

*

*

When was the last time you were in your home country?
June 29, 2016
*

*

*

*

*

45
Event No:

[REDACTED]

U.S. Department of Homeland Security
Information about Credible Fear Interview
Purpose of this notice

The purpose of this notice is to explain what will happen
while you are in detention, what rights you have, and
what may happen to you as a result of statements you
make. It is important that you understand your rights
and what will happen. PLEASE READ THIS NOTICE
CAREFULLY.
You have been detained because the U.S. Department of
Homeland Security (DHS) believes that you may not
have the right to stay in the United States. You have
indicated an intention to apply for asylum or a fear of
persecution or return to your country. You will be interviewed by a specially-trained asylum officer to determine if you have a “credible fear of persecution.” You
will be detained until that interview takes place. If the
DHS finds that you have a credible fear of persecution,
you may or may not be released.
Right to consult with other persons

Normally, the interview will not take place sooner than
48 hours after you arrive at the detention facility. You
may use this time to rest and consult with family members, friends, or other representatives. In unusual circumstances, you may be given additional time to contact
someone. If you need this additional time, you should
inform a DHS officer. You may request that the interview take place sooner if you are prepared to discuss
your fears or claim immediately.

46
You may consult with a person or persons of your choosing, provided that such consultation is at no expense to
the government and does not delay the process. A person of your choice can be present with you at your interview. A list of representatives who may be able to speak
to you free of charge is attached to this notice. You
may use the telephone while you are in detention to call
a representative, friend or family member in the United
States, collect or at your own expense. If you wish to
call someone, you should inform an DHS officer for assistance. You also may contact the United States Office of the United Nations High Commissioner for Refugees, at (202) 296-5191 from 9:00 a.m - 5:00 p.m. (eastern standard time), Monday thru Friday.
Description of credible fear interview

The purpose of the credible fear interview is to determine whether you might be eligible to apply for asylum
before an immigration judge. This interview is not
your formal asylum hearing. It is only to help us determine whether there is a significant possibility that
you may qualify as a refugee.
At your interview, you will have the opportunity to explain to the asylum officer why you think you should not
be returned to your home country. If you want to apply for asylum in the United States, or think you will be
harmed, persecuted or tortured if you return to your
home country, you must show an asylum officer that you
have a credible fear of being harmed or persecuted because of your race, religion, nationality, membership in
a particular social group or political opinion, or that it is
likely that you will be tortured.

47
If the officer determines that you have a credible fear or
persecution or that you might face torture if you are returned to your home country, you may be eligible to remain in the United States.
It is very important that you tell the officer all the reasons why you have concerns about returning to your
home country or are afraid to return to your home country. There are regulations protecting the confidentiality of asylum claims.
It is also very important that you tell the truth during
your interview. Although the purpose of this interview
is not to gather evidence against you, failure to tell the
truth could be used against you in this or any future immigration proceeding.
Need for interpreter or special consideration

If you do not speak English well or if you prefer to be
interviewed in your own language, DHS will provide an
interpreter for the interview. The interpreter has
been told to keep the information you discuss confidential. If the interpreter is not translating correctly or you
don’t feel comfortable with the interpreter, you may request another interpreter. The officer will take written notes.
If you will need to tell the asylum officer information
that is very personal and very difficult to talk about, you
may request a female officer and female interpreter, or
a male officer and male interpreter. The DHS will provide them if they are available. You will also have the
opportunity to speak with the asylum officer separately
from your family if you so desire.

48
Consequences of failure to establish credible fear and review of determination

If the asylum officer determines that you do not have a
credible fear of persecution, you may request to have
that decision reviewed by an immigration judge. The
immigration judge’s review will be in person or by telephone or video connection. The review will happen as
soon as possible, to the maximum extent practicable
within 24 hours, but in no case later than 7 days from the
date of the asylum officer’s decision. You may consult
with a person or person of your choosing before the review by the immigration judge, provided it does not cause
unreasonable delay. You will be given a copy of the
asylum officer’s record of determination to examine prior
to the review by the immigration judge. If any of the
information is incorrect, you should notify the immigration judge. The immigration judge may decide that you
do have a credible fear and that you are eligible for a full
asylum hearing before an immigration judge. If you
are ordered removed, you may be barred from reentry
to the United States for a period of 5 years or longer.
Interpreter Certification

I [ID#211399 LANGUAGE LINE SOLUTIONS]
(name of interpreter) certify that I am fluent in both
the [TAMIL] and English languages, that I interpreted the above information from English to
[TAMIL] completely and accurately, and that the recipient understood my interpretation.
/s/

[ILLEGIBLE]
Signature of Interpreter
Feb. 18, 2017
Date

49
Alien Acknowledgment of Receipt

I acknowledge that I have been given notice concerning my credible fear interview. I understand that I
may consult with a person or persons of my choosing
prior to the interview as long as it does not unreasonably delay the process and is at no expense to the
Government.
/s/

[T. VISAYAKUMAR]
Alien’s signature
Feb. 18, 2017
Date

50

[FOLDOUT 2]

51

[FOLDOUT 3]

52

[FOLDOUT 4]

53

[FOLDOUT 5]

54
Alien’s File Number:
SECTION V:

[REDACTED]

ASYLUM OFFICER/SUPERVISOR
NAMES AND SIGNATURES

5.1 [REDACTED]
Asylum officer name and ID CODE (print)
5.2 /s/ BF [REDACTED]
[REDACTED]
Asylum Officer’s Signature
5.3 3/9/2017
Decision date
5.4 [REDACTED]
Supervisory asylum officer name
5.5 /s/ LD [REDACTED]
[REDACTED]
Supervisor’s Signature
5.6 [3/10/17]
Date Supervisor Approved decision
ADDITIONAL INFORMATION/CONTINUATION

55
A Number: [REDACTED]
Name:

Interview Date:

Thuraissigiam,
Vijayakumar

Country:

asylum officer:

[REDACTED]

Sri Lanka

Asylum Office:

ZLA

3/7/2017

Interpreter:

Lionbridge 3895138
Start:

8:08am

Stop:

8:18am

QUESTIONS & ANSWERS
INTERPRETER OATH

Officer

Interpreter

Do you have copies of the
M-444 and I-870

Yes

Hello Interpreter, I will
now swear you in.
Do you affirm that you
will truthfully, literally
and fully interpret and
that you will not add to, or
change the matter to be
interpreted; that you will
immediately notify me if
you become unable to interpret in a neutral manner, and that you will
keep everything confidential?

Yes

56
Thank you. Please introduce yourself as the interpreter and ensure the
applicant
understands
you.
INTRODUCTION

Good morning, I am Officer [REDACTED] and I am going to be interviewing you today through an interpreter.
I am going to be asking you questions to determine if
you are eligible to have an asylum hearing before an immigration judge.
Officer

Applicant

Is the interpreter speaking your native language

Yes

You previously indicated
that you were afraid to return to your country.
Are you still afraid to return? Is this correct?

Yes

And you still want to continue with this credible
fear interview? Is this
correct?

Yes

How are you being They take care of me well.
treated at the detention
facility?

57
Do you have any medical
or health issues?

No

CONFIDENTIALITY

Officer

Applicant

Everything you say today
is confidential. Your interpreter has been placed
under oath and has sworn
to keep everything confidential so please feel comfortable sharing your
story with me today. Do
you understand what I
have explained to you
about confidentiality?

Yes

APPLICANT OATH

Officer

Applicant

Before we begin, I will
place you under oath.
Please raise your right
hand.
Do you promise that the
testimony you are about
to give will be the whole
truth and nothing false?

Yes

58
Thank you.
You may
lower your hand.
M444

Officer

Applicant

When you entered detention, you should have
been read Information
about Your Credible Fear
interview. This is a description of what will happen in your credible fear
interview and the rights
you have as an applicant.
Do you remember this?

Yes

Did you understand the
information?

Yes

Do you have any questions about it?

No

ATTORNEY

Officer

Applicant

Do you have an attorney
or a consultant?

No

• If No:
During this Can I talk to my family
interview, you have and get it arranged?
the right to be represented by an attorney

59
or to consult with any
person.
Would you
like to proceed with
this interview without
an attorney or consultant or would you like
to reschedule so that
you have time to find
one?
• That is your choice, I think I should wait and
Sir. You can choose talk with an attorney.
to find an attorney or
you can continue without one.
• So you’re saying that
you would like to reschedule this interview so you can find
and speak with attorney or consultant?

Yes

• Okay, we will resched- Thank you very much.
ule.

60
A Number: [REDACTED]
Name:

Interview Date:

Thuraissigiam,
Vijayakumar

Country:

asylum officer:

[REDACTED]

Sri Lanka

Asylum Office:

ZLA

Interpreter:

Lionbridge 3900514
Start:

8:03 am

Stop:

9:09 am

QUESTIONS AND ANSWERS
INTERVIEW INITIATED:

☒

8:03 am

Note Time Interview Starts

INTERPRETER INTRODUCTION

☒

3/9/2017

ADMINISTERED INTERPRETER OATH
OFFICER
Interpreter

Hello Interpreter, you
are going to be interpreting for a Credible Fear interview today. Do you
have copies of the I-870
and M-444 forms?

Yes

Do you affirm that you
will truthfully, literally
and fully interpret the
questions asked by the
asylum officer and the answers given by the applicant; that you will not add
to, delete from, comment
on, or otherwise change

Yes

61
the matter to be interpreted; and that you will
immediately notify the officer in this case if you become aware of your inability to interpret in in a
neural manner on account
of a bias against the applicant or the applicant’s
race, religion, nationality,
membership in a particular social group, or political opinion? Do you affirm that you understand
that the matters discussed during this interview are confidential?
Thank you. I will now connect you to the applicant.
INTRODUCTION TO APPLICANT:

Good morning, I am Officer [REDACTED]. I am an
Asylum Officer with US Government. I will be conducting today’s credible fear interview to determine if
you are eligible to have an asylum hearing before an immigration judge.

62
Officer

Applicant

What is your native language?

Tamil

Do you speak any other
language

No

Do you understand the
Interpreter?

Yes

Interpreter, do you understand the applicant?

Yes

Are you currently alone in
the room?

Yes

Are you comfortable proceeding with this interview?

Yes

☒

ADMINISTERED APPLICANT OATH

Before we begin, I need to place you under oath.
Please raise your right hand.
OFFICER

Principal Applicant—
Interviewee

Do you promise that the
testimony you are about
to give will be the whole
truth and nothing but the
truth?

Yes

Thank you.
You may
now put your hand down.

63
I’m going to ask the interpreter to read you a statement, please listen carefully.
☒

SECTION 1.28, FORM I-870, READ TO APPLICANT BY INTERPRETER

Interpreter, can you please read Section 1.28 of Form
I-870
Officer

Interviewee

Do you understand what
was just read to you?

Yes

M-444 ORIENTATION:
Officer

Principal Applicant—
Interviewee

When you entered detention, you were read Information about Your Credible Fear interview. This
is a 2 page document
which describes what will
happen in the credible
fear interview and the
rights you have as an applicant.

No.

I have the document
which you signed on:
2/18/17. Do you remember this information being

64
read to you in your native
language?
You don’t remember hav- I remember signing a
ing this read to you or form but not being read to
signing the form?
me or given in my native
language.
[Interpreter was asked to
read M-444 form to applicant]
Do you have any questions about the form?

No

Do you have any question
about the purpose of today’s interview?

Yes

What is your question?
Would you like to continue with the interview?

Yes, I understand.
Yes

How are you being They treat me well, no
treated at the detention problems.
facility where you are at
now?
Are you currently ill or
taking any medications?

No I have no problems.

ATTORNEY
Officer

Applicant

I understand this interview was rescheduled so

Yes

65
that you could find an attorney or immigration
consultant. Do you have
an attorney or an immigration consultant now?
Would you like your at- No, I have no problem we
torney/immigration con- can continue with this insultant on the phone for quiry.
this interview?
You have the right to have No, I don’t need any I can
you attorney or immigra- continue.
tion consultant present
during the interview.
This is a very important Yes, we talked to the lawinterview, which will de- yer but did not confirm
termine if you are eligible with the lawyer.
to appear before an Immigration Judge to present
your claim for Asylum.
Are you sure you would
like to continue without
an attorney or immigration consultant?
You have two options; you We can continue with the
can continue today with- inquiry today.
out your lawyer or I can
give you two days to consult with your attorney.
How do you want to proceed?

66
REVIEWED I-870 BACKGROUND INFORMATION &
ADD’L QUESTIONS:

What is your full name?

Thuraissigiam,
Vijayakumar

What is your date of
birth?

[REDACTED]

Have you ever used any
other names?

No

Have you used any other
dates of birth?

No

What country are you a
citizen of?

Sri Lanka

Were you born there?

Yes

Are you a citizen of or
have status in any other
country?

No

Have you lived or worked
in other countries?

No

Have you ever visited
other countries?

Yes

What countries?
How long were you there?

India
41 years

You lived in India 41 No I visited and stayed
there 3 months.
years?
What was your purpose in Because I had a problem
in my country and I went
going there?
to India and when my visa

67
expired I came back to
Sri Lanka
Do you have lawful status
No
in any other countries?
Where did you live before
coming to the U.S.?

Sri Lanka

What was your address
there?

[REDACTED]
Thamul, Sri Lanka

What did you do there?
(e.g. work, school)

Farming

What is your race or ethnicity?
(For example,
some people say they are
Sinhalese, Tamil)

Tamil

What is your religion if
you practice one?

Hindu

What is your marital status?

Married

Do you have any children?

Yes, one

Did any family members
arrive with you at the
same time?

No

Do you want your spouse
or children included in
your claim?

Yes

68
If Married:

What is your spouse’s
name?

[REDACTED]

What country is your
spouse a citizen of?

Sri Lanka

Where is your spouse currently located?

In Sri Lanka

What is your spouse’s
date of birth?

[REDACTED]

If children:

How many children do
you have?
What is your child’s
name?

One
[REDACTED]

What is your child’s date
of birth?

[REDACTED]

What country is your
child a citizen of?

Sri Lanka

Where is your child currently located?

In Sri Lanka

Sponsor/Relative Information:

Do you have the contact
information for any family members or friends in
the United States who
will be your point of contact?

No

69
ENTRY INFORMATION
Officer

Applicant

Records indicate you entered the United States
on 2/17/17 near or around
San Ysidro, CA is that
correct?

Yes

Were you detained that
same day?

Yes

Have you ever entered
the US before?

No

Have you ever had lawful
permission to enter or
live in the United States

No

Have you ever applied for
any legal status in the
United States before, like
a visa, or asylum?

No

Has anyone ever applied
for any immigration benefits on your behalf in the
US before?

No

Medical/MH Conditions:

Do you have any physical,
mental, or emotional conditions?

No

70
SUBSTANTIVE QUESTIONS

We are about to begin discussing the basis of your claim
for asylum. I ask that you please speak loudly and
clearly, and pause after two or three sentences so that
the interpreter may accurately translate your responses.
Please listen to my questions carefully and try to answer
them directly. If we don’t discuss something that you
think is important, at the end of our interview you will
have an opportunity to give me more information.
Past Harm
Officer

Applicant

Why did you leave Sri I was arrested and beaten
Lanka?
and they were looking for
me. I could not live in
Sri Lanka so I left the
country.
When did these events ocIn 2014
cur? (specific date/year)
How many times were I was arrested once. I
you beaten or arrested?
was beaten and dumped
on the road.
When I
woke up I was in the hospital
How were you harmed?
They beat me and injured
my foot. They beat me
with
wooden
rods.
When they started beating me I passed out so I
don’t know what they did.
I woke up in the hospital.
My left arm has become

71

What did the doctors say
your injuries were?
Besides the physical beating do you remember if
they said anything to you
while being attacked?
Who arrested and beat
you? Do you know their
name(s)?

Do you know why they
beat you specifically?
Do you know why they
beat
you specifically
though?

numb now from the beating.
I was in the hospital for 11
days. They said because
of the beating.
They arrested me and put
me in their van and they
started beating me and I
fainted and after that I
don’t know what happened.
I was working on my
farm.
Two men came
and called me and when I
approached there was a
van with 5 men in it.
They took off my shirt
and covered my face with
it and removed my underwear, by banyan, and tied
me up with it and started
beating.
They called me and I went
to the van. It was on the
9th and I woke up in the
hospital on the 10th.
No, I don’t know.

They never said anything No, they didn’t say.
to you?
They only blindfolded me
and started beating me.

72
Did they ever identify
themselves?

No

Do you have any idea who
these people might be?

I do not know

Was your family ever
harmed or threatened?

No

Did you report these
events to the police/authorities?

No

Why not?

Why would you think the
police wouldn’t help you if
you reported it?

Has anyone else that you
know been harmed the
way you were?
Has anyone else ever
harmed you during your
lifetime?

I thought if I go to the police, the problems will be
more. I don’t know why,
I just left the country.
Because I do not know
who did it and if I complain to them they will ask
who did it and since I do
not know who did it, they
will not help me.
No.
I don’t know, it
could have happened.
No

You said your wife and They live with my mother
child are in Sri Lanka,
who do they live with?

73
In the same place where
you lived when you were
attacked?

Yes

Have they ever been
threatened or harmed?

No

Future Harm

Are you afraid of returning to Sri Lanka?

Yes

Who are you afraid of in
Sri Lanka?

I do not know

Are there any gangs/
groups that are active in
your area?

No

What do you fear will hap- No, I will not go back.
pen to you if you return to My life is not safe there.
Sri Lanka?
How do you know you are Because I was beaten
once, I am scared.
not safe there?
How would the persons I was doing farming and
who attacked you know/ they came to my farm and
they called me and I said
recognize you?
“I am watering my
plants.” Then I stopped
the water pump and went
to them. When I went
up to the road a few seconds later a van came
with 5 men in it and they
came and threw me into
the van.

74
How would these individ- I don’t know how they will
uals know you have re- know, but I am scared to
turned to Sri Lanka?
go back.
Why do you think they They could come and hurt
would come back again to me again. I cannot go
back. Because they beat
harm you?
me once, they can do it
again.
Why did they choose to Because I was working
beat you in particular?
alone in my farm.
I
don’t know why they
chose to beat me.
Is the government/police
I don’t know.
willing/able to protect?
Internal Relocation:

Do you think you could
live safely in another part
of Sri Lanka?
Why not?

No

I am not going back.

Why do you think you They might beat me. It
could not live safely in an- can happen somewhere
else.
other part of Sri Lanka?
Do you have any family
members living on other
areas of your country?

No

75
Convention Against Torture:

Other than what we have
discussed, have you ever
been harmed or mistreated in the past by a
government official?
This can include the police, military, public officials.
How about someone who
is acting at the request of
a public official?
Do you fear you could be
harmed in the future by
government officials, the
police, or any person associated with the government if you return?

No

No

I don’t know, I can’t say

Do you think the police or No. I don’t know, I can’t
government of your coun- say.
try would look the other
way if these individuals
would hurt you again?
Do you think that the po- No. I have not gone to
lice would harm you if the the police.
people you fear asked or
told them to?

76
Other Nexus:
I am required to ask everyone the following questions.
These questions are related to other reasons you might
fear returning to your country. Please do not repeat
anything we have already discussed, I have already documented that information. If the question does not apply to you, you can just say “no” with no further explanation.
Have you ever been or are
you afraid of being harmed
because of your political
opinion?

No

Have you ever been
harmed or threatened because someone disagreed
with an opinion you hold
or something you have
spoken out about?

No

Have you ever been or are
you afraid of being
harmed because of your
religion?

No

Have you ever been or are
you afraid of being
harmed because of your
race?

No

Have you ever been or are
you afraid of being
harmed because of your

No

77
nationality? (e.g. country, specific part of country)
Have you ever been or are
you afraid of being
harmed because some
people think you have because you are seen as
“different from others?

No

Sometimes people are
targeted as a form of revenge against a family
member. Are you afraid
of being harmed because
of your relationship to
someone in your family?

No

Have you ever been
harmed or threatened by
anyone in your family at
any time in your life?
Even when you were a
child?

No

Have you ever been
harmed or afraid of being
harmed for any other reason that you have not already told me?

No

78
Mandatory Bars:
Officer

Applicant

Have you ever harmed
another human being?

No

Have you ever committed
a crime in any country?
(including your own?

No

Have you ever been arrested or detained in any
country (including your
own)?

No

Have you ever been affiliated with groups that use
violence in order to reach
their goals?

No

Have you ever served in
the military?

No

Have you received any
military-type training?

No

Have you ever publicly
stated you approve of terrorist activities?

No

Even if you did not want
to, have you ever helped a
person involved in terrorist activities?

No

Even if you did not want
to, have you ever tried to
convince others to join or

No

79
support a group that advocated for or used violence to achieve their
goals?
End of Interview Questions:
Officer

Aside from what we’ve
discussed, do you have
any other problems in
your country or is there
anything else you would
like to add?
Did
you
everything
asked?

understand
that
was

Applicant

No, that’s all

Yes

The interpreter is now
going to read you an explanation of what will
happen after this interview.
PARAGRAPH 3.2 OF FORM I-870 READ TO APPLICANT

Interpreter, please read paragraph 3.2 of form I-870.
Do you understand what
Yes
was read to you?
Do you have any quesNo
tions or comments?

Please give me a moment to review my notes and summarize what we discussed.

80
I am going to give you a brief
summary of what we discussed today, and after I am
done, please let me know if there is anything that you
would like to add.
SUMMARY OF FACTS:

You indicated that you are afraid of returning to Sri
Lanka because you believe you will be beaten up and
that you do not feel safe there. You testified that you
were taken by men and beaten and awoke one day
later in the hospital.
You do not know who these individuals are or why
they beat you. You testified that you were working
on your farm when these men came in a van, blindfolded you, took you away and beat you.
You do not know if the police or other government entities are willing or able to protect you because you did
not report this incident to the authorities. Although
you do not know who beat you or why you were beaten,
you are fearful of returning of Sri Lanka.
PROVIDE SUMMARIZED CASE TO APPLICANT AS
REQUIRED BY PARA. 3.3, FORM I-870

Is this summary correct?

Yes

Is there anything else you
would like to add or do
you have any other questions?

No

Conclusion

•

We are now at the end of the interview. Thank
you for speaking with me today. You will receive a response in about one week.

81
•

Please place the phone on the desk in front of
you, but do not hang up. Let the officer know
you are done.

• Interpreter, thank you for your service today.
You may disconnect.
INTERVIEW CONCLUDED:

9:09 am

82
APSO:
A [REDACTED] COUNTRY:
DATE:
[REDACTED]
SRI LANKA
3/9/2017

• If there is a significant possibility of establishing
eligibility for asylum or withholding under
241(b)(3), complete A., B., and C only.
• If there is a significant possibility of establishing
eligibility for protection under the Convention
Against Torture, complete A., B., and D only.
• If there is a significant possibility of establishing
eligibility for asylum or withholding of removal
under 241(b)(3) or for withholding or deferral of
removal under the CAT pursuant to 8 CFR
208.16(c) or 208.17, complete Sections A., B., C.,
and D. unless the claim falls in Section A (Harm)
or Section B. (Credibility). In which case, stop
and complete Form I-870.
A. Harm (If yes to A.1., and/or A.2., move to Part B. If
no to A.1. and A.2., STOP, and complete FORM
I-870.)

1. Has the applicant testified that he or
she has experienced past harm in his or
her country?
If yes, identify any past harm or mistreatment suffered, and identify all relevant entit(ies).
Harm: Being taken and beaten up
Entit(ies): Unknown men

Yes ☒
No ☐

83
2. Has the applicant testified that he or
she fears future harm if returned to his
or her country?

Yes ☒
No ☐

If yes, identify any past harm or mistreatment feared, and identify all relevant entit(ies).
Harm: Being beaten up
Entit(ies): Unknown men
B. Credibility (Select the appropriate box and if testi-

mony was partially credible or not credible, then:
(1) identify the credibility factor and explain the evidence to support it, (2) provide the applicant’s explanation, and (3) address if the explanation is reasonable for reach factor. After analyzing all relevant
credibility factors, conder them in the totality of the
circumstances.)
Applicant’s

testimony

was

credible:

☒

Applicant’s testimony was partially credible: Considering the totality of the cir-

☐

Considering the totality of the circumstances and all relevant factors, the applicant’s testimony was consistent, detailed, and plausible. Therefore, it is
found credible. (Check box and moved
to Section C. and/or D.)

cumstances and all relevant factors, the
applicant’s testimony was found partially credible. The applicant’s testimony was found credible regarding the

84
relevant facts that are sufficient to establish a credible fear. (Check box, explain and move to Section C. and/or D.)
Applicant’s testimony was not credible:

☐

Considering the identified credibility issues, the absence of reasonable explanations for those issues, and taking into
consideration the applicant’s individual
circumstances, the applicant’s testimony
is found not credible under the totality of
the circumstances and all relevant factors. (Check box, explain, STOP, and
complete Form I-870.)
Persecution (If yes to C.1. or C.2., complete C.3.
If no to C.1. and C.2., complete C.3.)
C.

1.a. Past Persecution: There is a significant possibility the applicant
can establish in a full hearing that:
• The harm experienced was sufficiently serious to amount to
persecution;
• The entity that harmed the applicant was motivated to harm
the applicant on account of his
or he race, religion, nationality,
membership in a particular social group, or political opinion;
and

Yes ☐
No ☒

85
• The entity that harmed the applicant was an agent of the government or an entity that the
government was unable or unwilling to control.
AND
1.b. There is no evidence so substantial
that the presumption of wellfounded fear can be rebutted.
or
If the presumption of well-founded
fear has been rebutted, there is a
significant possibility that asylum
could be granted based on: (1) the
severity of the past persecution; or
(2) a reasonable possibility of other
serious harm.
2.

Future Persecution: There is a
significant possibility that the applicant can establish in a full hearing that:
• The applicant fears harm
that is sufficiently serious to
amount to persecution;
• The applicant

Yes ☐

1)

possesses a
characteristic,

protected

2)

of which the feared entity
is or could become aware

No ☒

86
or the feared entity believes that the applicant
possess a protected characteristic,
3)

the feared entity has the
capability to persecute the
applicant,

4)

the feared entity has the
inclination to persecute the
applicant, OR there is a
pattern or practice of persecution of a group of persons similarly situated to
the applicant on account of
a protected ground;

• The entity would be motivated
to harm the applicant on account of his or her race, religion,
nationality, membership in a
particular social group, or political opinion;
• The entity that would harm the
applicant would be an agent of
the government or an entity
that the government would be
unable or unwilling to control;
and
• Under all the circumstances, it
would not be reasonable for the
applicant to relocate within the

87
applicant’s country to avoid future persecution.
3.

Written Analysis:

Race ☐ Religion ☐ Nationality ☐ Membership
in a Particular Social Group ☐ Political Opinion ☐

If credible fear of persecution established, identify
the protected ground and specify: No Nexus
As needed, provide a brief reasoned analysis. Focus on determinative factors, applying the eligibility
elements to the facts.
The applicant testified that he was taken by men in a
van and beaten and awoke one day later in the hospital.
He indicated that he does not know who these individuals were or why they beat him up.
The applicant provided no testimony indicating that he
was or will be be targeted because of race, religion, nationality, membership in a particular social group, or
political opinion. It is unknown who these individuals were or why they wanted to harm the applicant.
Thus, the applicant failed to establish that these acts
were due to a protected characteristic.
D.

Torture (Make a selection in D.1. and, as

needed, complete D.2.)

D.1. There is a significant possibility the

applicant can establish in a full
hearing that:
• The feared harm would be
specifically intended to in-

Yes ☐
No ☒

88
flict severe pain or suffering
on the applicant;
• The feared harm would constitute severe physical or mental
pain or suffering;
• The feared harm would be inflicted by or at the instigation of
or with the consent or acquiescence of a public official or other
person acting in an official capacity;
• The applicant would be in the
offender’s custody or physical
control; and
• The harm would not arise only
from or be inherent in or incidental to lawful sanctions.
In making this determination, the following evidence must be considered:
• Evidence of past torture inflicted upon the applicant;
• Evidence that the applicant
could relocate to a part of the
country of removal where he or
she is not likely to be tortured;
• Evidence of gross, flagrant or
mass violations of human rights
within the country of removal;
and other relevant information

89
regarding conditions in the
country of removal.
If the applicant has demonstrated that
there is a significant possibility of establishing past torture AND there are no
changes in circumstances so substantial
such that the applicant does not have a
credible fear of torture, the applicant
will be found to have established a credible fear of torture.
D.2.

Written Analysis: As needed, provide a brief
reasoned analysis. Focus on determinative
factors, applying the eligibility elements to the
facts.

The applicant does not appear to have experienced torture. He testified to being beaten on one occasion by
unknown individuals for unknown reasons. The applicant did not testify that the harm he experienced in
the past was caused by, or [was] at the instigation of a
public official, nor that the harm was inflicted with the
acquiescence of a public official. The applicant did
not report the incident to the police or other authorities; therefore, he does not know if the police or other
authorities were aware that he was being harmed. He
did not know if they would look the other way or be unwilling to help him. [He simply indicated that he
didn’t go to them for help because he wouldn’t be able
to provide them with information on his attacker.]
The applicant testified that his family continues to reside at the location where he was attacked and denies
any threats being made against him or his family.

90
U.S. Department of Homeland Security
Notice of Referral to Immigration Judge
C/o DHS Otay Mesa Deten- Date
tion Center/OMDC,
[Mar. 13, 2017]
7488 Calzada de la Fuente,
San Diego, CA 92158
(619) 661-3800
Name
A-File

Vijayakumar
THURAISSIGIAM

[REDACTED]

Place and Manner of
Arrival

Country of Citizenship

Sri Lanka

Near San Ysidro, CA;
Entered without in- Date of arrival
spection
2/17/2017

To immigration judge:

☒ 1. The above-named alien has been found inadmissible to the United States and ordered removed pursuant to section 235(b)(1) of the Immigration and
Nationality Act (Act). A copy of the removal order
is attached. The alien has requested asylum and/
or protection under the Convention against Torture
and the matter has been reviewed by an asylum officer who has concluded the alien does not have a
credible fear of persecution or torture. The alien
has requested a review of that determination in accordance with section 235(b)(1)(B)(iii)(III) of the
Act and 8 CFR § 208.30(g).
☐ 2. The above-named alien arrived in the United
States as a stowaway and has been ordered removed
pursuant to section 235(a)(2) of the Act. The alien

91
has requested asylum and/or withholding of removal under the Convention against Torture and
the matter has been reviewed by an asylum officer
who has concluded the alien does not have a credible
fear of persecution or torture. The alien has requested a review of that determination in accordance with section 235(b)(1)(B)(iii)(III) of the Act.
☐ 3. The above-named alien arrived in the United
States in the manner described below and has requested asylum and/or withholding of removal under the Convention against Torture. The matter is
referred for a determination in accordance with
8 CFR § 208.2(c). Arrival category (check one):
☐ Crewmember/applicant ☐ Crewmember/refused
☐ Crewmember/violator ☐ VWP/applicant
☐ 235(c) order

☐ S-visa nonimmigrant

☐ Crewmember/landed

☐ VWP/violator

☐ Stowaway:
tached

credible fear determination at-

☐ 4. The above-named alien has been ordered removed by an immigration officer pursuant to section
235(b)(1) of the Act. A copy of the removal order
is attached. In accordance with section 235(b)(1)(C)
of the Act, the matter is referred for review of that
order. The above-named alien claims to be (check
one):
☐ a United States citizen ☐ an alien granted refugee
status under section 207
of the Act
☐ a lawful permanent resident alien

92
☐ an alien granted asylum under section 208 of the Act.
☐ 5. The above-named alien has been ordered removed pursuant to section 238(b) of the Act, or the
Department of Homeland Security (DHS) has reinstated a prior exclusion, deportation, or removal order of the above-named alien pursuant to section
241(a)(5) of the Act. A copy of the removal order
and, if applicable, the notice of reinstatement, are
attached. The alien has expressed fear of persecution or torture and the claim has been reviewed by
an asylum officer who has concluded the alien does
not have a reasonable fear of persecution or torture.
The alien has requested a review of that determination in accordance with 8 CFR §§ 208.31(f ) and (g).
☐ 6. The above-named alien has been ordered removed pursuant to section 238(b) of the Act, or the
DHS has reinstated a prior exclusion, deportation,
or removal order of the above-named alien pursuant
to section 241(a)(5) of the Act. A copy of the removal order and, if applicable, the notice of reinstatement, are attached. The alien has expressed
fear of persecution or torture and the claim has been
reviewed by an asylum officer who has concluded the
alien has a reasonable fear of persecution or torture.
The matter has been referred for a determination in
accordance with 8 CFR § 208.31(e).
☐ 7. The Secretary of Homeland Security has determined that the release from custody of the abovenamed alien who is under a final order of removal
would pose a special danger to the public according
to the standards set in 8 CFR § 241.14(f)(1). The
DHS has therefore invoked procedures to continue

93
the alien’s detention even though there is no significant likelihood that the alien will be removed from
the United States in the reasonably foreseeable future. The matter is referred to the immigration
judge for a review of this determination in accordance with 8 CFR 241.14(g).

94
U.S. Department of Homeland Security
Notice of Referral to Immigration Judge
NOTICE TO APPLICANT

You are ordered to report for a hearing before an immigration judge for the reasons staled above. Your hearing is scheduled on
To be
determined
(Date)

To be
at determined
(Time)

You are to appear
at

EOIR, site to be determined in San Diego
(Complete office address)

☒ You may be represented in this proceeding, at no
expense to the government, by an attorney or other
individual authorized and qualified to represent persons before an Immigration Court. If you wish to
be so represented, your attorney or representative
should appear with you at this hearing. In the
event of your release from custody, you must immediately report any change of your address to the Immigration Court on Form EOIR-33, which is provided with this notice. If you fail to appear for a
scheduled hearing, a decision may be rendered in
your absence.
☒ You may consult with a person or persons of your
own choosing prior to your appearance in Immigration Court. Such consultation is at no expense to the
government and may not unreasonably delay the
process.

95
☒ Attached is a list of recognized organizations and attorneys that provide free legal service.
/s/

[ILLEGIBLE]
(Signature and title of immigration officer
CERTIFICATE OF SERVICE

☒ The contents of this notice were read and explained
to the applicant in the Tamil language.
☒ The original of this notice was delivered to the
above-named applicant by the undersigned on
[Mar. 13, 2017] and the alien has been advised of
communication privileges pursuant to 8 CFR
236.1(e). Delivery was made:
☒ in person ☐ by certified mail, return receipt
#
requested ☐ by regular mail
/s/

[ILLEGIBLE]
(Signature and title of immigration officer

Attachments to copy presented to immigration judge:

☐ Passport

☒ Form I-860

☐ Visa

☒ Form I-869

☐ Form 1-94

☐ Form I-898

☐ Forensic document
analysis

☐ Asylum Officer’s
reasonable fear determination
worksheet
(I-899)

☐ Fingerprints and
photographs

☒ Asylum officer’s
credible fear determination worksheet (I-870)

96
☐ EOIR-33
☐ FOR 8 CFR 241.14(f ) CASES ONLY: Written statement including summary of the basis for the Secretary’s determination to continue the alien in detention, and description of the evidence relied on in
finding the alien specially dangerous (with supporting documents attached).
☐ FOR 8 CFR 241.14(f ) CASES ONLY: Written notice advising the alien of initiation of proceedings
and informing alien of procedures governing the
Reasonable Cause Hearing at 8 CFR 241.14(h).
☐

Other (specify):

97
IMMIGRATION COURT
7488 CALZADA DE LA FUENTE
SAN DIEGO, CA 92154

Case No. [REDACTED]
IN THE MATTER OF: THURASSIGIAM, VIJAYAKUMAR,
RESPONDENT

IN:

CREDIBLE FEAR REVIEW PROCEDINGS
ORDER OF THE IMMIGRATION JUDGE

On Mar 17, 2017 at 08:00 A.M. a review of the DHS
Credible Fear Determination was held in the matter
noted above. Testimony [✓] was [ ] was not taken
regarding the background of the Applicant and the Applicant’s fear of returning to his/her country of origin or
last habitual residence.
After consideration of the evidence, the Court finds that
the Applicant [ ] has [✓] has not established a significant possibility that he/she would be persecuted on the
basis of his/her race, religion, nationality, membership
in a particular social group, or because of his/her political opinion.
[or for relief under the Convention
Against Torture]
ORDER: It is hereby ordered that the decision of the
immigration officer is:
[✓] Affirmed, and the case is returned to the DHS
for removal of the alien.
[

] Vacated.

This is a final order.

There is no appeal available.

98
DONE and ORDERED this [17th] day of [Mar.], 20[17].
/s/

[ILLEGIBLE]
HENRY P. IPEMA
Immigration Judge

CERTIFICATE OF SERVICE
THIS DOCUMENT WAS SERVED BY: MAIL (M)
PERSONAL SERVICE (P)
TO: [✓] ALIEN [ ] ALIEN c/o Custodial Officer
[ ] ALIEN’s ATT/REP [✓] DHS
DATE:

[3/12/2017]

Attachments:

[
[

BY:

COURT STAFF [HP1]

]
EOIR-33 [ ]
EOIR-28
] Legal Services List [ ] Other

99
Record of Sworn Statement in Proceedings
under Section 235(b)(1) of the Act
U.S. Department of Homeland Security

Office:

IMPERIAL BEACH, CA, BORDER PATROL
STATION
File No: [REDACTED]
Event No: [REDACTED]
Statement by:

VIJAYAKUMAR THURAISSIGIAM

In the case of:

VIJAYAKUMAR THURAISSIGIAM

Date of Birth:

[REDACTED]

Gender (select one):

Male

Female

At: IMPERIAL BEACH, CA, BORDER PATROL
STATION Date: Feb. 18, 2017
Before:

[REDACTED] BORDER PATROL AGENT
(Name and Title)

In the Tamil language. Interpreter ID #211399 Employed by LANGUAGE LINE SOLUTIONS
I am an officer of the United States Department of
Homeland Security. I am authorized to administer the
immigration laws and to take sworn statements. I
want to take your sworn statement regarding your application for admission to the United States. Before I
take your statement, I also want to explain your rights,
and the purpose and consequences of this interview.
You do not appear to be admissible or to have the required legal papers authorizing your admission to the
United States. This may result in your being denied

100
admission and immediately returned to your home country without a hearing. If a decision is made to refuse
your admission into the United States, you may be immediately removed from this country, and if so, you may
be barred from reentry for a period of 5 years or longer.
This may be your only opportunity to present information to me and the Department of Homeland Security
to make a decision. It is very important that you tell
me the truth. If you lie or give me misinformation, you
may be subject to criminal or civil penalties, or barred
from receiving immigration benefits or relief now or in
the future.
Except as I will explain to you, you are not entitled to a
hearing or review.
U.S. law provides protection to certain persons who
face persecution, harm or torture upon return to
their home country. If you fear or have a concern
about being removed from the United States or about
being sent home, you should tell me so during this interview because you may not have another chance.
You will have the opportunity to speak privately and
confidentially to another officer about your fear or
concern. That officer will determine if you should
remain in the United States and not be removed because of that fear.
Until a decision is reached in your case, you will remain
in the custody of the Department of Homeland Security.
Any statement you make may be used against you in this
or any subsequent administrative proceeding.
Q. Do you understand what I have said to you?
A. Yes.

101
Q. Do you have any questions?
A. No.
Q. Are you willing to answer my questions at this time?
[T. Vijayakumar.]
A. Yes.
Q. Do you swear or affirm that all statements you are
about to make are true and complete?
A. Yes.
Q. What is your true and complete name?
A. THURAISSIGIAM, Vijayakumar.
Q. Have you ever used any other names?
A. No.
Q. What is your date of birth?
A. [REDACTED]
Q. Where were you born?
A. Sri Lanka.
Q. What country are you a citizen of?
A. Sri Lanka.
Q. Are you in possession of any immigration documents that allow you to enter or remain in the United
States legally?
A. No.
Q. Have you ever applied for any immigration status?
A. No.
Q. What country are your parent’s citizens of?

102
A. Sri Lanka.
Q. Where do your parents reside?
A. Sri Lanka.
Q. Do you have any family residing in the United
States?
A. No.
Q. Do you have any petitions filed on your behalf?
A. No.
Q. For what purpose did you enter the United States
illegally?
A. I came here because people beat me up.
Q. What was your intended destination in the United
States?
A. United States.
Q. When and where did you last enter the United
States illegally?
A. Last night from Tijuana.
Q. Were you inspected by immigration officers at a
Port of Entry?
A. No.
Q. Have you ever been apprehended by any law enforcement offices in the United States or your country
of citizenship?
A. No.
Q. How many times have you been apprehended by the
United States Border Patrol for entering the United
Sates illegally?

103
A. This is the first time.
Q. What happened after the United States Border Patrol apprehended you?
A. N/A
Q. Have you ever presented before an Immigration
Judge? [T. Vijayakumar]
A. No.
Q. Were you advised of your consulate rights?
A. Yes.
Q. Are you going to speak to a consulate officer?
A. No.
Signature

Title

/s/

BORDER PATROL
AGENT

ILLEGIBLE
[REDACTED]

104
Jurat for Record of Sworn Statement in
Proceedings under Section 235(b)(1) of the Act
U.S. Department of Homeland Security

Q: Why did you leave your home country or country of
last residence?
A. BECAUSE PEOPLE BEAT ME UP.
Q. Do you have any fear or concern about being returned to your home country or being removed from the
United States?
A. Yes. [T. Vijaykumar]
Q. Would you be harmed if you are returned to your
home country or country of last residence?
A. YES.

[T. Vijaykumar]

Q. Do you have any question or is there anything else
you would like to add?
A. NONE
I have read (or have had read to me) this statement,
consisting of 1 pages (including this page). I state
that my answers are true and correct to the best of
my knowledge and that this statement is a full, true
and correct record of my interrogation on the date
indicated by the above named officer of the Department of Homeland Security. I have initialed each
page of this statement (and the corrections noted on
page(s)
).
/s/

VIJAYAKUMAR THURAISSIGAIM
VIJAYAKUMAR THURAISSIGAIM

105
Sworn and subscribed to before me at IMPERIAL
BEACH, CA, BORDER PATROL STATION on
Feb. 18, 2017.
/s/ [REDACTED]
BORDER PATROL AGENT
Signature of Immigration Officer [ILLEGIBLE]
Witnessed by:
BORDER PATROL AGENT
[REDACTED] [ILLEGIBLE]

106
Notice and Order of Expedited Removal
U.S. Department of Homeland Security
DETERMINATION OF INADMISSIBILITY

Event No:

[REDACTED]

File No:

[REDACTED]

Date:

Feb, 18, 2017

In the Matter of: VIJAYAKUMAR THURAISSIGIAM
Pursuant to section 235(b)(1) of the Immigration and Nationality Act (Act), (8 U .S.C. 1225(b)(1)), the Department
of Homeland Security has determined that you are inadmissible to the United States under section(s) 212(a)
☐ (6)(C)(i); ☐ (6)(C)(ii); ☒ (7)(A)(i)(I); ☐ (7)(A)(i)(II);
☐ (7)(B)(i)(I); and/or ☐ (7)(B)(i)(II) of the Act, as
amended, and therefore are subject to removal, in that:
1. You are an immigrant not in possession of a valid
unexpired immigrant visa, reentry permit, border crossing card, or other valid entry document required by the
Immigration and Nationality Act. You are not a citizen
or national of the United States, you are a native of Sri
Lanka and citizen of Sri Lanka, and on February 17,
2017, you illegally entered the United States at/near San
Ysidro, California, and you were not inspected by an Immigration Officer.
[REDACTED]
BORDER PATROL AGENT
Name and title of immigration officer (Print)
/s/ [REDACTED]

107
ORDER OF REMOVAL
UNDER SECTION 235(b)(l) OF THE ACT

Based upon the determination set forth above and evidence presented during inspection or examination pursuant to section 235 of the Act, and by the authority contained in section 235(b)(1) of the Act, you are found to
be inadmissible as charged and ordered removed from
the United States.
[[REDACTED], SDDO]
Name and title of immigration officer (Print)
/s/ [REDACTED], SDDO
[REDACTED]
Signature of immigration officer
[REDACTED], [ILLEGIBLE]
Name and title of supervisor (Print)
/s/ [REDACTED]
[REDACTED]
☐ Check here if supervisory concurrence was obtained
by telephone or other means (no supervisor on duty).
CERTIFICATE OF SERVICE

I personally served the original of this notice upon the
above-named person on [3/13/2017]
Date
[ILLEGIBLE]
Signature of immigration officer

